Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
ORLANDO SANCHEZ,
Defendant

:
:
:
:
:
:
:

CRIMINAL NO. 1:92-CR-319
(Chief Judge Conner)

MEMORANDUM
A jury found defendant Orlando Sanchez (“Sanchez”) guilty of one count
of conspiracy to possess with intent to distribute more than 500 grams of cocaine in
violation of 21 U.S.C. § 846; one count of possession of a firearm by a convicted felon
in violation of 18 U.S.C. § 922(g); and one count of using and carrying a firearm in
relation to drug trafficking in violation of 18 U.S.C. § 924(c). Because Sanchez had
three or more qualifying prior convictions under the Armed Career Criminal Act
(“ACCA” or “the Act”), his statutory maximum sentencing exposure was increased
to life imprisonment. See 18 U.S.C. § 924(e)(1). The court sentenced Sanchez to an
aggregate term of 386 months’ imprisonment.
Sanchez now moves the court to vacate his sentence in light of the United
States Supreme Court’s decision in Johnson v. United States, 576 U.S. ___, 135 S.
Ct. 2551 (2015), which invalidated the ACCA’s residual clause as unconstitutionally
vague. (Docs. 264, 267). We hold that Sanchez is ineligible for relief under Johnson
and will accordingly deny his motion.

1 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 2 of 13

I.

Factual Background & Procedural History
On December 15, 1992, a federal grand jury returned a three-count

indictment against Sanchez and three others. (Doc. 1). The indictment charged
Sanchez with one count of conspiracy to possess with intent to distribute more
than 500 grams of cocaine in violation of 21 U.S.C. § 846 (Count 1); one count of
possession of a firearm by a convicted felon in violation of 18 U.S.C. § 922(g) (Count
2); and one count of using and carrying a firearm in relation to drug trafficking in
violation of 18 U.S.C. § 924(c) (Count 3). (Id.) Before trial, the government filed
an information seeking an enhanced sentence under the ACCA, 18 U.S.C. § 924(e),
based on five of Sanchez’s prior offenses:
•

a 1982 conviction in the Superior Court of California for grand theft
from the person;

•

two 1983 convictions in the Municipal Court of Los Angeles,
California, for burglary; and

•

three 1989 convictions in the Court of Common Pleas of Dauphin
County, Pennsylvania, for delivery of cocaine.

(Doc. 6).
The jury found Sanchez guilty of all three counts in the indictment.
Sanchez’s statutory sentencing exposure was substantial. Count 1 carried a
mandatory minimum term of 10 years’ imprisonment and a maximum of life.
Count 2, due to the ACCA enhancement, carried a mandatory minimum term of
15 years and a maximum of life. And Count 3 required a consecutive 5-year term
of imprisonment. The presentence report calculated a Guidelines imprisonment
range of 360 months to life. On August 19, 1993, the late Judge William W. Caldwell

2

2 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 3 of 13

sentenced Sanchez to an aggregate term of 386 months’ imprisonment, consisting
of concurrent 326-month terms on each of Counts 1 and 2, and a 60-month term on
Count 3, to run consecutively to Count 1. (Doc. 102). Sanchez appealed, the Third
Circuit Court of Appeals affirmed, and the United States Supreme Court denied
certiorari. See United States v. Sanchez, 31 F.3d 1175 (3d Cir.) (table), cert. denied,
513 U.S. 1030 (1994).
Sanchez has had three prior Section 2255 motions denied or dismissed by
this court. Sanchez filed his first motion in May 2001, and Judge Caldwell denied
that motion as untimely. (Docs. 185, 195). More than ten years later, Sanchez filed
a second Section 2255 motion which Judge Caldwell dismissed as an unauthorized
second or successive motion. (Docs. 245, 246). On June 8, 2015, Sanchez filed a
third Section 2255 motion, invoking the Supreme Court’s decision in Descamps
v. United States, 570 U.S. 254 (2013), to challenge his armed-career-criminal status.
(Doc. 255). Judge Caldwell also denied that motion, finding it was both untimely
and an unauthorized second or successive motion. (Doc. 259).
Sanchez filed the instant Section 2255 motion on August 29, 2016, and
appointed Johnson counsel filed a supplemental motion on November 4, 2016.
After several stays pending the outcomes of related Supreme Court and Third
Circuit cases, the motion is fully briefed and ripe for disposition.
II.

Standard of Review
Under Section 2255, a federal prisoner may move the sentencing court to

vacate, set aside, or correct the prisoner’s sentence. 28 U.S.C. § 2255. Courts may
afford relief under Section 2255 on a number of grounds including, inter alia, “that
3

3 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 4 of 13

the sentence was imposed in violation of the Constitution or the laws of the United
States.” Id. § 2255(a); see also 28 U.S.C. § 2255 Rule 1(a). The statute provides that,
as a remedy for an unlawfully imposed sentence, “the court shall vacate and set the
judgment aside and shall discharge the prisoner or resentence him or grant a new
trial or correct the sentence as may appear appropriate.” 28 U.S.C. § 2255(b). The
court accepts the truth of the defendant’s allegations when reviewing a Section 2255
motion unless those allegations are “clearly frivolous based on the existing record.”
United States v. Booth, 432 F.3d 542, 545 (3d Cir. 2005). A court is required to hold
an evidentiary hearing when the motion “allege[s] any facts warranting § 2255 relief
that are not clearly resolved by the record.” United States v. Tolliver, 800 F.3d 138,
141 (3d Cir. 2015) (quoting Booth, 432 F.3d at 546).
III.

Discussion
The ACCA compels a mandatory minimum sentence of 15 years’

imprisonment for defendants convicted under 18 U.S.C. § 922(g) who have acquired
three prior, adult convictions for a “violent felony” or a “serious drug offense” that
were “committed on occasions different from one another.” 18 U.S.C. § 924(e)(1).
The Act defines “serious drug offense” to include, inter alia, state-law offenses for
manufacturing, distributing, or possessing with intent to manufacture or distribute
a controlled substance for which the maximum term of imprisonment is 10 years or
more. Id. § 924(e)(2)(A)(ii). The Act defines “violent felony” to include any offense
punishable by imprisonment for more than one year which falls within one of three
categories: (1) crimes having “as an element the use, attempted use, or threatened
use of physical force against the person of another”; (2) crimes of burglary, arson,
4

4 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 5 of 13

or extortion, or which involve use of explosives; and (3) crimes which “otherwise
involve[] conduct that presents a serious potential risk of physical injury to
another.” Id. § 924(e)(2)(B)(i)-(ii). Courts refer to the first clause as the “force
clause,” the second as the “enumerated offenses clause,” and the third as the
“residual clause.”
The Supreme Court in Johnson invalidated the residual clause of the ACCA’s
violent-felony definition as unconstitutionally vague. Johnson v. United States, 576
U.S. ___, 135 S. Ct. 2551, 2557 (2015). But Johnson left untouched the “serious drug
offense” predicate, and the Court explicitly stated that its decision “does not call
into question” the force or enumerated-offense clauses. See id. at 2563. Thus, a
defendant may still qualify for an enhanced sentence under the ACCA if they have
three or more convictions that qualify under one of the remaining provisions. The
Supreme Court has declared Johnson to be retroactively applicable on collateral
review. Welch v. United States, 578 U.S. ___, 136 S. Ct. 1257, 1265 (2016).
Sanchez asserts that, following Johnson, he no longer has the minimum
number of qualifying prior-felony convictions to support an armed-career-criminal
designation under the ACCA. Sanchez also asserts that Johnson applies with equal
force to an identical residual clause in the career-offender provision of the United
States Sentencing Guidelines. The government opposes Sanchez’s motion. Before
turning to the merits of Sanchez’s claim, we first address the threshold question of
whether we have jurisdiction to entertain this second or successive Section 2255
motion.

5

5 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 6 of 13

A.

Second or Successive Motion

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
strengthened the procedural and substantive prerequisites for second or successive
motions under 28 U.S.C. § 2255. See Goldblum v. Klem, 510 F.3d 204, 216 (3d Cir.
2007). The AEDPA contemplates only two types of second or successive motions:
(1) those based on newly discovered evidence sufficiently undermining guilt, and
(2) those grounded in “a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.” 28 U.S.C.
§ 2255(h).
Before filing a motion with the district court, a defendant must move in
the appropriate court of appeals for an order authorizing a second or successive
motion. Id. §§ 2244(b)(3)(C), 2255(h). The court of appeals conducts a “preliminary
examination” to assess whether the motion satisfies the procedural requirements of
Section 2244(b)(3)(C). See United States v. Peppers, 899 F.3d 211, 221 (3d Cir. 2018)
(citing Goldblum, 510 F.3d at 217-20). If the court of appeals determines that the
defendant has made a “prima facie showing” as to the statute’s requirements, the
defendant may file the second or successive petition in the district court. See 28
U.S.C. § 2244(b)(3).
Court of appeals authorization, however, is not synonymous with district
court jurisdiction. Authorization evinces only that the movant has made “a
sufficient showing of possible merit to warrant a fuller exploration by the district
court.” Goldblum, 510 F.3d at 219 (emphasis added) (quoting Bennett v. United
States, 119 F.3d 468, 469-70 (7th Cir. 1997)). The district court must independently
6

6 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 7 of 13

satisfy itself that the movant fulfills the jurisdictional requirements of § 2255(h). See
28 U.S.C. § 2244(b)(4); see also Goldblum, 510 F.3d at 220. The Third Circuit has
described the district court’s inquiry as “more extensive” and “more thorough”
than the appellate court’s prima facie review. Peppers, 899 F.3d at 221 (quoting
Goldblum, 510 F.3d at 220). Hence, the ultimate gatekeeping determination rests
with the district court.
Sanchez properly sought and obtained leave from the Third Circuit Court
of Appeals to file the instant motion, (see Doc. 265), his fourth under Section 2255.
Specifically, on August 29, 2016, the Third Circuit issued an order finding that in
light of the Supreme Court’s decisions in Johnson and Welch, Sanchez has made
the requisite prima facie showing to authorize a second-or-successive motion. (Doc.
265). Hence, we must conduct our gatekeeping function and ask whether Sanchez’s
claims in fact invoke a “new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.” 28 U.S.C.
§ 2255(h); Peppers, 899 F.3d at 221 (citing Goldblum, 510 F.3d at 219-20).
1.

Career-Offender Challenge

Sanchez’s career-offender challenge cannot meet this standard. Sanchez
claims that Johnson recognized a new rule that applies retroactively to invalidate
both his armed-career-criminal status under the ACCA and his career-offender
status under the mandatory Sentencing Guidelines. Sanchez’s career-offender
theory was tenable when the Third Circuit authorized his second-or-successive
motion as containing a new rule of constitutional law three years ago. But case law
has since developed to preclude this claim.
7

7 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 8 of 13

Sanchez was sentenced as a career offender before the Supreme Court’s
decision in United States v. Booker, 543 U.S. 220 (2005), when the Guidelines were
mandatory. At the time Sanchez’s instant motion was authorized, a Third Circuit
Court of Appeals panel had held that Johnson naturally extends to invalidate the
identically worded residual clause in the career-offender Guidelines. See United
States v. Townsend, 638 F. App’x 172, 178 & n.14 (3d Cir. 2015) (nonprecedential).
The Supreme Court rejected that view in Beckles v. United States, 580 U.S. ___, 137
S. Ct. 886 (2017), expressly declining to extend Johnson to the advisory Guidelines
career-offender provision. Beckles, 137 S. Ct. at 895, 897. The Court couched its
holding in terms of the “advisory Guidelines,” see id. at 890, 895, 897 (emphasis
added), leaving open whether Johnson provides relief to career offenders sentenced
pre-Booker, see id. at 903 n.4 (Sotomayor, J., concurring in the judgment). The
Third Circuit recently answered that open question, holding that Johnson “created
a right only as to the ACCA” and “did not recognize a right to bring a vagueness
challenge to the mandatory Sentencing Guidelines.” United States v. Green, 898
F.3d 315, 321 (3d Cir. 2018), cert. denied, 139 S. Ct. 1590 (2019).
Because Johnson has been circumscribed to apply only to the ACCA, we
cannot conclude that Sanchez’s career-offender challenge relies on a “new rule”
recognized and made retroactive on collateral review by the Supreme Court. 28

8

8 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 9 of 13

U.S.C. § 2255(h)(2); see In re Hoffner, 870 F.3d 301, 309 (3d Cir. 2017). Accordingly,
we must deny this aspect of Sanchez’s motion for lack of jurisdiction. 1
2.

ACCA Challenge

As to his ACCA claim, however, Sanchez clears the procedural hurdle.
Sanchez is not required to prove that he necessarily will prevail on his Johnson
claim. The gatekeeping requirements of Section 2255(h) task Sanchez to show only
“that his sentence may be, not that it must be, unconstitutional in light of a new rule
of constitutional law made retroactive by the Supreme Court.” Peppers, 899 F.3d at
221-22 (emphasis added). Johnson’s invalidation of the ACCA’s residual clause is a
new rule of constitutional law made retroactive on collateral review by the Supreme
Court. Welch, 136 S. Ct. at 1265. The information charging Sanchez’s prior felonies
explicitly invokes the residual clause and the force clause to support a 1982 grandtheft conviction as a predicate, and only the residual clause to support the three
1983 burglary convictions. (Doc. 6 at 1-2). At sentencing, the court did not specify
which of the five charged prior felony convictions qualified as ACCA predicates, nor

1

Sanchez’s career-offender challenge is untimely for much the same reason.
Section 2255(f) establishes a one-year limitations period which runs from the latest
of, inter alia, the date on which the judgment became final or “the date on which
the right asserted was initially recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and made retroactively applicable to
cases on collateral review.” 28 U.S.C. § 2255(f)(1), (3). Sanchez’s judgment became
final decades ago, so the timeliness of his career-offender claim hinges on the scope
of Johnson. The Third Circuit’s decision in Green makes clear that the only “right”
recognized by Johnson concerns the ACCA. Sanchez’s career-offender claim has
no Johnson hook and is thus untimely. Sanchez’s counsel ostensibly concedes as
much: in a notice apprising us of the denial of certiorari in Green, counsel stated
that Sanchez’s “challenge to his designation as an armed career criminal should
proceed.” (Doc. 284 at 2).
9

9 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 10 of 13

which ACCA clause it relied on in imposing Sanchez’s enhanced sentence. (See
Sent. Tr. 3:1-18). Thus, Sanchez has made the requisite preliminary showing that
his sentence may be unconstitutional in light of Johnson.
B.

Merits of the Johnson Claim

Sanchez contends that the none of the prior felony convictions charged in
the government’s information qualify today as ACCA predicates. (See Doc. 267 at
8-12). Sanchez’s theory is threefold: first, that we do not have enough information
to assess whether his three Pennsylvania controlled-substance convictions qualify
as separate ACCA predicates; second, that the two California burglary convictions,
charged only under the residual clause, are no longer ACCA predicates following
Johnson and Descamps; and third, that the California grand-theft conviction,
charged under both the force and residual clauses, does not qualify under the force
clause and cannot qualify under the invalidated residual clause. (See id.) Because
we disagree with Sanchez on his first contention, we need not address the balance
of his arguments.
Sanchez does not dispute that each of his three Pennsylvania convictions for
delivery of cocaine qualifies as a “serious drug offense” as that term is defined in
the ACCA. (Doc. 267 at 8-9). He instead contends that there is no proof that these
offenses were “committed on occasions different from one another” as required
under the statute. (Id.); see 18 U.S.C. § 924(e)(1). The government answers this
argument by supplying certified state-court records establishing the date of offense
for each of Sanchez’s prior felony drug convictions. (See Doc. 290 at 9-10).

10

10 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 11 of 13

The Supreme Court in Shepard v. United States, 544 U.S. 13 (2005), identified
the types of materials that courts may examine to determine whether a particular
offense qualifies as a “violent felony” under the ACCA. See Shepard, 544 U.S. at
26. Those materials—often referenced as “Shepard documents”—include charging
documents, plea agreements, plea-colloquy transcripts, and jury instructions. See
id.; Taylor v. United States, 495 U.S. 575, 602 (1990). The Third Circuit has looked
to Shepard documents outside of the violent-felony context, including to decide
whether a prior drug conviction is a “serious drug offense,” see Gibbs v. United
States, 656 F.3d 180, 187 (3d Cir. 2011), and whether offenses were “committed on
occasions different from one another,” see United States v. Blair, 734 F.3d 218, 22728 (3d Cir. 2013). Accordingly, we look to the materials supplied by the government
to determine whether Sanchez’s Pennsylvania delivery-of-cocaine convictions are
separate offenses for ACCA purposes.
The Shepard documents in this case include the charging information for
each of Sanchez’s prior delivery-of-cocaine convictions, and they specifically
identify the date and location of each offense. (Doc. 290-1 at 6, 8, 13). They detail
Sanchez’s charges as follows:
•

on December 21, 1988, Sanchez delivered cocaine at Ivy Lane,
Apartment 7, in Harrisburg, Pennsylvania;

•

on December 22, 1988, Sanchez delivered cocaine at 48 Row Hall
Manor, in Harrisburg, Pennsylvania; and

•

on December 27, 1988, Sanchez delivered cocaine at Building 2,
Apartment 7, Ivy Lane, in Harrisburg, Pennsylvania.

11

11 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 12 of 13

(Id.) Sanchez pled guilty to all three charges on June 19, 1989. (Doc. 290-1 at 7, 9,
14; see also Presentence Report ¶ 51). The cases were consolidated for sentencing,
and Sanchez received a sentence of 6 to 23 months’ imprisonment on each count, to
run concurrently. (See Presentence Report ¶ 51).
Sanchez has not responded to the Shepard documents, presumably because
prevailing law would defeat any claim that his prior drug convictions constitute a
single offense. The Third Circuit has held that prior convictions may be counted
separately under the ACCA when they arise from “separate episodes” of criminal
activity that “were distinct in time.” United States v. Schoolcraft, 879 F.2d 64, 73-74
(3d Cir. 1989) (citations omitted). Applying this test, the Third Circuit has held that
robberies separated by just one day are “separate” offenses. Blair, 734 F.3d at 228.
Indeed, the court cited with approval a decision holding that robberies separated
by only 45 minutes are sufficiently distinct in time. Id. at 229 (citing United States
v. Brady, 988 F.2d 664, 668-70 (6th Cir. 1993) (en banc)).
The Third Circuit has not applied the separate-episodes test to drugtrafficking predicates in a precedential opinion. But the robust consensus among
its nonprecedential authority is that drug transactions constitute separate episodes
when they are sufficiently distinct in time that the defendant had an opportunity
to cease the criminal activity. See United States v. Ward, 753 F. App’x 112, 114-15
(3d Cir. 2018) (nonprecedential) (citation omitted); United States v. Chatham, 487
F. App’x 769, 771 (3d Cir. 2012) (nonprecedential) (citation omitted). This is so
even when the subject drug deals are separated by mere days, involve the same
confidential informant or undercover officer, occur at the same place, and are
12

12 a

Case 1:92-cr-00319-CCC Document 293 Filed 11/13/19 Page 13 of 13

prosecuted and sentenced together. See, e.g., Ward, 753 F. App’x at 114-15 (two
days, same informant); United States v. Swan, 661 F. App’x 767, 770 (3d Cir. 2016)
(nonprecedential) (four days); Chatham, 487 F. App’x at 771-72 (five days, same
undercover agent).
Against this backdrop, Sanchez’s convictions for delivery of cocaine on
December 21, December 22, and December 27, 1988, qualify as “separate episodes.”
Because these three serious drug offenses put Sanchez over the ACCA threshold,
we need not determine whether his California burglary and grand-theft convictions
qualify as violent felonies after Johnson. Sanchez was, and is, properly designated
an armed career criminal under the ACCA.
IV.

Conclusion
We conclude that Sanchez is not entitled to Section 2255 relief based on the

Supreme Court’s decision in Johnson. We will deny Sanchez’s motion to vacate
and correct sentence pursuant to 28 U.S.C. § 2255. We will also deny a certificate
of appealability, as Sanchez has not “made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). An appropriate order shall issue.

/S/ CHRISTOPHER C. CONNER
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania
Dated:

November 13, 2019

13 a

Case 1:92-cr-00319-CCC Document 294 Filed 11/13/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
ORLANDO SANCHEZ,
Defendant

:
:
:
:
:
:
:

CRIMINAL NO. 1:92-CR-319
(Chief Judge Conner)

ORDER
AND NOW, this 13th day of November, 2019, upon consideration of the pro
se motion (Doc. 264) and counseled supplemental motion (Doc. 267) by defendant
Orlando Sanchez (“Sanchez”) to vacate, set aside, or correct sentence pursuant to
28 U.S.C. § 2255, it is hereby ORDERED that:
1.

Sanchez’s motions (Docs. 264, 267) to vacate, set aside, or correct
sentence under 28 U.S.C. § 2255 are DENIED.

2.

A certificate of appealability is DENIED. See 28 U.S.C. § 2255 Rule
11(a).

3.

The Clerk of Court is directed to close the corresponding civil case
number 1:16-CV-1790.

/S/ CHRISTOPHER C. CONNER
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania

14 a

Case: 19-3719

Document: 13-2

Page: 1

Date Filed: 06/08/2020

ALD-185
May 7, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3719
UNITED STATES OF AMERICA
VS.
ORLANDO SANCHEZ, Appellant
(M.D. Pa. Crim. No. 1-92-cr-00319-002)

Present:

MCKEE, SHWARTZ, and PHIPPS, Circuit Judges
Submitted is appellant’s request for a certificate of appealability under 28
U.S.C. § 2253(c)(1),
in the above-captioned case.
Respectfully,

Clerk
________________________________ORDER_________________________________
Appellant’s request for a certificate of appealability is denied because jurists of
reason would not debate the District Court’s denial of his motion under 28 U.S.C. § 2255.
See 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003); Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Among other things, jurists of reason would not
debate the District Court’s ruling that appellant’s challenge to his designation as a career
offender under U.S.S.G. § 4B1.1, which was mandatory when appellant was sentenced, is
foreclosed by United States v. Green, 898 F.3d 315 (3d Cir. 2018), cert. denied, 139 S.
Ct. 1590 (2019). In that regard, even if jurists of reason could debate the District Court’s
conclusion that appellant’s challenge does not satisfy the gatekeeping requirements of 28

15 a

Case: 19-3719

Document: 13-2

Page: 2

Date Filed: 06/08/2020

U.S.C. § 2255(h)(2), which we do not decide, jurists of reason could not debate the
District Court’s alternative conclusion that the challenge is untimely under Green.

By the Court,
s/Patty Shwartz
Circuit Judge
Dated: June 8, 2020
Lmr/cc: Stephen R. Cerutti, II
Frederick W. Ulrich

A True Copy:

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

16 a

